              - .          NATIONAL SCIENCE FOUIVJ)ATIC-
                               ARLINGTON, VA 22230




    O f f i c e of
Inspector G e n e r a l




                                                           -
MEMORANDUM
      DATE:         August 21, 1995            A




 SUBJECT: NSF ~m~lo~e<'s Posting of Links to
          Internet Sites
         TO:        File I95070025

On Julv 10. 1995. our office ,receiveddocuments from the Office of

                                                 had posted
                                               mepage.
                                                 - -    How
attempted to log :o          to these links from             homepage, we
                                  removed. We e v e m u n d the links
                                  University sewer and determined that
                                 any federal obscenity statutes.
We have referred this matter to I f o r appropriate personnel
action. This case is closed.
